                   U.S. Department of Agriculture
                        Office of Inspector General
                                 Southwest Region




           Audit Report
Follow-up on FNS Disaster Supplemental
   Nutrition Assistance Program for
     Hurricanes Katrina and Rita




                               Report No. 27601-11-Te
                                            June 2009
                             UNITED STATES DEPARTMENT OF AGRICULTURE

                                                   OFFICE OF INSPECTOR GENERAL


                                                         Washington, D.C. 20250




June 2, 2009

REPLY TO
ATTN OF:            27601-11-Te

TO:                 Julie Paradis
                    Administrator
                    Food and Nutrition Service

ATTN:               Lael Lubing
                    Director
                    Grants Management Division

FROM:               Robert W. Young /s/
                    Assistant Inspector General
                      for Audit

SUBJECT:            Follow-up on FNS Disaster Supplemental Nutrition Assistance Program for Hurricanes
                    Katrina and Rita


The Department of Agriculture’s (USDA) Food and Nutrition Service (FNS) is responsible for
providing nutrition assistance to the victims of natural disasters, including hurricanes. This assistance
is provided through the Disaster Supplemental Nutrition Assistance Program (D-SNAP), administered
by FNS through State agencies. During 2005, D-SNAPs were operated in Louisiana and Texas as a
result of Hurricanes Katrina and Rita. The Office of Inspector General (OIG) initiated a review in
2006 to determine if these programs were adequately administered and if the States were following
FNS guidance. In September 2007, OIG issued a report 1 which concluded that FNS could improve
how it administers State disaster programs by finalizing its regulations to ensure States comply with
key requirements of the Food Stamp Act and the FNS Handbook as well as ensuring that State disaster
systems include controls to minimize participant fraud and abuse.

In 2009, OIG initiated a follow-up review to determine if these improvements had been made. We
found that due to a moratorium on new regulations, issued by the previous administration, FNS has not
fully implemented corrective action in response to one of the four recommendations from our
September 2007 audit report; however, action was initiated during the fieldwork of our review by
establishing new proposed deadlines for regulation revisions. In regards to the remaining three
recommendations, OIG concluded that sufficient corrective action has been taken.

1
  Audit Report No. 27099-49-Te, “FNS Disaster Food Stamp Program for Hurricanes Katrina and Rita – Louisiana, Mississippi, and Texas,” dated
September 2007.
BACKGROUND:

Within the USDA, FNS provides food benefits to low-income families through the Supplemental
Nutrition Assistance Program (SNAP). States are responsible for distributing this assistance through
electronic benefit transfer systems. During times of disaster, D-SNAPs may be implemented for which
States must design their own plans, evaluate the need for assistance, submit to FNS a request to
operate a D-SNAP, effectively implement the program, perform post-disaster reviews, and report their
findings to FNS. FNS supports the State’s efforts by providing policy guidance, training, and technical
assistance. FNS also provides approval for State D-SNAP plans and requests to operate a D-SNAP and
uses the information provided in post-disaster reviews and assessments to improve D-SNAP in the
future.

Hurricanes Katrina and Rita struck the Gulf Coast of Louisiana, Mississippi, and Texas, on
August 29, 2005, and September 24, 2005, respectively. When the President declared disaster areas
affected by Hurricanes Katrina and Rita, FNS became responsible for providing $680 million in
disaster benefits to over 1.6 million affected households.

In 2006, OIG conducted a review to determine if FNS adequately administered D-SNAP and if the
State agencies responsible for operating them followed FNS’ guidance. The audit report, issued in
September 2007, noted that FNS quickly provided nutrition assistance to millions of disaster victims
and the distribution of benefits should be regarded as one of the successes of the Federal response to
the hurricanes. However, it did note areas where improvements should be made to ensure State
agencies are adequately prepared in future disaster situations. Specifically, OIG found that State
agencies did not have adequate disaster plans in place that met all requirements of the FNS Handbook
and the Food Stamp Act. In addition, food stamp regulations had not been finalized and did not
provide specific requirements for disaster plans. We also found that the State agencies’ systems used
to process applications did not track denied applications and/or account for all family members and
none of the systems had been tested to ensure controls were in place to prevent duplicate participation
and other forms of fraud, waste, and abuse. Therefore, OIG made four recommendations to finalize
regulations, develop and implement procedures to review disaster plans annually, and ensure that State
disaster certification systems include controls to minimize participant fraud and abuse. This audit was
initiated to assess the actions taken by FNS, to date, in response to these four recommendations.

OBJECTIVE:

The objective was to determine if FNS had taken sufficient corrective actions in response to OIG
Audit Report No. 27099-49-Te, Food and Nutrition Service Disaster Food Stamp Program for
Hurricanes Katrina and Rita – Louisiana, Mississippi, and Texas, dated September 2007. Specifically,
we followed up on the progress of FNS’ SNAP regulation revisions and improvements and verified
that the process and responsibility for reviewing State D-SNAP plans were clear and adequate.

SCOPE AND METHODOLOGY:

We performed fieldwork for our audit at the FNS Southwest Regional Office in Dallas, Texas, and
obtained information from FNS’ National Office in Alexandria, Virginia. The Louisiana and Texas
State agencies were also contacted for information.

USDA/OIG-A/27601-11-Te                                                                    Page 2
We reviewed documentation of FNS’ corrective actions taken in response to the prior OIG audit report
issued in September 2007. Specifically, we reviewed the prior 2007 audit report and interviewed FNS
national and regional officials as well as State agency officials responsible for the disaster programs.
In addition, we obtained and reviewed the following:

     •    FNS’ guidance for developing and reviewing disaster plans;
     •    FNS’ guidance for administering D-SNAP;
     •    Program waivers issued during the 2008 hurricane season;
     •    2008 disaster plans for Louisiana and Texas;
     •    FNS’ guidance related to disaster certification system testing; and
     •    2008 disaster status reports and management evaluations.

We conducted our fieldwork from February 6, 2009, through April 29, 2009.

We conducted this performance audit in accordance with generally accepted Government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective.

RESULTS:

Of the four recommendations from the September 2007 OIG audit report, we found that FNS had not
implemented one of the previous recommendations (Recommendation 1). FNS officials stated that
work on this recommendation had been delayed because a moratorium on rulemaking was issued on
May 9, 2008.

          Recommendation 1 2 required FNS to finalize Federal regulations pertaining to disaster
          assistance. FNS agreed to make revisions and improvements to their regulations and
          anticipated having an Office of Management and Budget approved Regulatory Review Work
          Plan by June 2008, publishing proposed regulations by June 2009, and finalizing regulations
          by August 2010. However, through interviews with national office personnel, we determined
          that FNS had not taken any actions concerning these regulations. The agency stated that a
          moratorium 3 on rulemaking was issued on May 9, 2008. It stated the following: “To the extent
          permitted by law, the heads of executive departments and agencies should continue to
          minimize costs and maximize benefits for each of their upcoming regulations, and should
          avoid issuing regulations that are unnecessary. Except in extraordinary circumstances,
          regulations to be finalized in this Administration should be proposed no later than
          June 1, 2008, and final regulations should be issued no later than November 1, 2008.” Since
          the moratorium ended with the change in Administration, FNS has now initiated action on this
          recommendation. According to national office officials, the Office of Management and Budget


2
  Recommendation 1: “Finalize Federal food stamp regulations pertaining to disaster assistance. At a minimum, the regulations should include the
Disaster Food Stamp Program (DFSP) requirements of the Food Stamp Act and a requirement for States to adhere to the mandatory requirements of the
DFSP Handbook.”
3
  This moratorium was issued in memorandum format to the heads of executive departments and agencies and the administrator of the Office of
Information and Regulatory Affairs by the White House’s Chief of Staff on May 9, 2008.
USDA/OIG-A/27601-11-Te                                                                                                         Page 3
          cleared the Regulatory Review Work Plan on May 1, 2009, and the agency anticipates
          proposed regulations by May 2010 and final regulations by November 2011.

For the remaining three recommendations, we found that FNS has implemented the agreed upon
corrective action:

          In response to Recommendations 2 4 and 3, 5 FNS issued policy memoranda on
          October 16, 2007, and February 7, 2008, detailing the steps to be taken by the regional offices
          to review and approve State disaster plans on an annual basis. OIG found these memos to be
          clear and adequate. Although Recommendation 3 requested that the review of State plans be
          included in the annual review of State agency operations, FNS’ response suggested that the
          review be a separate comprehensive review, to which OIG agreed. We concluded that FNS’
          Southwest Regional Office did conduct separate annual reviews of the Louisiana and Texas
          State disaster plans for the 2008 disaster season. In addition, both State agencies had adequate
          disaster plans in place that met all requirements of the D-SNAP Guidance.

          In response to Recommendation 4, 6 FNS published Eligibility Determination System
          Anti-Fraud Requirements, as an attachment to FNS’ D-SNAP Guidance (revised April 2008)
          which is issued to the State agencies. This additional guidance requires that all D-SNAP
          certification and issuance systems have the ability to enter all applicant household member
          information as well as all denied applications. It also requires all State agencies to test their
          systems by October 2010, to ensure they include the above requirements and are ready to
          operate in the aftermath of a disaster. OIG found these anti-fraud requirements to be adequate.
          FNS stated that they would perform additional tests of their systems when they are upgraded or
          modified. OIG found this to be a reasonable determination.

In conclusion, OIG determined that FNS had taken sufficient corrective action in response to 3 of the 4
prior recommendations. In regards to the remaining recommendation, OIG noted that FNS has
recently initiated actions to finalize Federal regulations pertaining to disaster assistance.

Accordingly, this report presents no findings or recommendations, and no further action is required by
your office. We appreciate the courtesies and cooperation extended to us by members of your staff
during our review.




4
  Recommendation 2: “Develop and implement procedures detailing how FNS regional offices will review State DFSP plans and determine their
adequacy. These procedures should include timeframes for submission and approval, documentation of approvals to State agencies, and actions that will
need to be taken if a State disaster plan is found to lack mandatory components.”
5
  Recommendation 3: “Require FNS regional offices to include a review of State DFSP plans in annual reviews of State agency operations.”
6
  Recommendation 4: “Require States to test their disaster systems used to process applications annually, and document the results. These tests must
include checks to ensure denied applications can be tracked and all household members are entered into the system during disaster situations.”
USDA/OIG-A/27601-11-Te                                                                                                             Page 4
